                 

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Improvements Needed in
                     Estimating and Leveraging
                     Cost Savings Across EPA
                     Report No. 13-P-0028                    October 22, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Richard Eyermann
                                                   Mike Davis
                                                   Teren Crawford
                                                   Nancy Dao
                                                   Denise Darasaw
                                                   Alexandra Zapata-Torres
                                                   Debra Coffel




Abbreviations

ARRA 	        American Recovery and Reinvestment Act of 2009
CERCLIS       	Comprehensive Environmental Response, Compensation, and Liability
              Information System
CFO 	         Chief Financial Officer
DOJ	          U.S. Department of Justice
EPA 	         U.S. Environmental Protection Agency
FASAB 	       Federal Accounting Standards Advisory Board
FY     	      Fiscal year
IFMS 	        Integrated Financial Management System
IGCE 	        Independent Government Cost Estimate
OAM	          Office of Acquisition Management
OARM	          Office of Administration and Resources Management
OCFO 	        Office of the Chief Financial Officer
OECA 	        Office of Enforcement and Compliance Assurance
OIG 	         Office of Inspector General
OMB 	         Office of Management and Budget
ORD 	         Office of Research and Development
OSRTI	         Office of Superfund Remediation and Technology Innovation
OSWER 	       Office of Solid Waste and Emergency Response
PRP 	         Potentially responsible party




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0028
                                                                                                        October 22, 2012
                        Office of Inspector General


                        At a Glance

                             Glance
Why We Did This Review
                                    Improvements Needed in Estimating and
Since 2009, the President and       Leveraging Cost Savings Across EPA
the Office of Management and
Budget (OMB) have issued
various memorandums and              What We Found
directives requesting agencies
                                    Regions 4 and 7, which were the focus of our review, did not apply reliable
to identify ways to avoid costs
                                    methods for estimating savings and cost avoidances. Management is
and achieve efficiencies and
                                    responsible for assuring efficient and effective operations and reliable financial
savings. In August 2009, the
                                    reporting including development of savings or cost avoidance initiatives.
U.S. Environmental Protection
                                    No EPA policy and procedures existed for Regions 4 and 7 to follow when
Agency’s (EPA’s) Office of
                                    estimating savings or cost avoidances. EPA will not be able to accurately report
Administration and Resources
                                    the results of its efficiency initiatives and influence internal and external
Management (OARM) issued
                                    management decisions.
an electronic memorandum
titled “Management Reform
                                    While OARM took the initiative to lead the identification of potential savings and
Agenda” to request input from
                                    cost avoidances for all Agency programs and regions, it did not effectively follow
program offices and regions to
                                    up on implementation to ensure EPA achieved the desired results (i.e.,
identify efficiency projects. EPA
                                    efficiencies, savings, and cost avoidances) or to determine whether the Agency
program offices and regions
                                    could realize greater savings by expanding results. Office of Management and
identified 72 projects.
                                    Budget Circular A-123 states that program managers should ensure results are
                                    achieved. Sufficient follow-up did not occur because OARM and the Office of
We conducted an audit to
                                    the Chief Financial Officer viewed the projects as merely ideas for possible cost
determine whether: (1) EPA’s
                                    savings. Nevertheless, without following up on the progress in achieving desired
efforts to identify and realize
                                    and expected savings and efficiencies, EPA may have missed opportunities to
savings have been effective,
                                    leverage and expand its cost-cutting efforts, apply best practices for gaining
and (2) EPA savings reported
                                    greater efficiencies, and realize significant savings and cost avoidances
to OARM were accurate and
                                    Agency-wide.
complete.
                                     Recommendations and Planned Agency Corrective Actions
This report addresses the
following EPA Goal or               We recommend that the Chief Financial Officer develop a policy and procedures
Cross-Cutting Strategy:             for identifying and estimating cost savings, efficiencies, and avoidances. We
                                    recommend that the Assistant Administrator for OARM develop a policy on
 Strengthening EPA’s               estimating savings and cost avoidances relating to contracts. We recommend
  workforce and capabilities        that Regions 4 and 7 recalculate identified cost avoidances based on prescribed
                                    guidance and report the data as appropriate. We recommend that the Chief
                                    Financial Officer determine whether significant projects from the 72 initiatives
                                    resulted in significant efficiencies and publicly report the results as appropriate
                                    for possible Agency-wide implementation.

                                    The Office of the Chief Financial Officer, OARM, and Regions 4 and 7 did not
                                    concur with the recommendations. Our recommendations remain unresolved.
For further information, contact
our Office of Congressional and      Noteworthy Achievements
Public Affairs at (202) 566-2391.
                                    OARM took the initiative to involve EPA program offices and regions in
The full report is at:              identifying potential efficiencies and savings initiatives on 72 projects with
www.epa.gov/oig/reports/2013/       potential estimated savings and cost avoidances of over $33 million—later
20121022-13-P-0028.pdf              reduced to $21 million.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                        October 22, 2012

MEMORANDUM

SUBJECT:	 Improvements Needed in Estimating and Leveraging Cost Savings Across EPA
          Report No. 13-P-0028


FROM:          Arthur A. Elkins, Jr.

TO:	           See Below


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 60 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public. If your response contains such data, you should identify the
data for redaction or removal. We have no objection to the further release of this report to the
public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Michael Davis, Product Line Director, at (513) 487-2363 or davis.michaeld@epa.gov.


Addressees:
Craig E. Hooks, Assistant Administrator for Administration and Resources Management
Barbara J. Bennett, Chief Financial Officer
Gwendolyn Keyes Fleming, Regional Administrator, Region 4
Karl Brooks, Regional Administrator, Region 7
Improvements Needed in Estimating and                                                                                       13-P-0028
Leveraging Cost Savings Across EPA


                                  Table of Contents

Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                3     

                Scope and Methodology ..............................................................................               3     


   2	   Enhanced Methods Needed to Determine Savings 

        and Cost Avoidances.........................................................................................               6


                Improvements Needed in Determining Savings and Cost Avoidances .......                                             6

                Conclusion...................................................................................................      9     

                Recommendations ......................................................................................            10     

                Agency Response and OIG Evaluation .......................................................                        11 


   3	   EPA Follow-Up Efforts Needed to Optimize Savings 

        and Cost Avoidances.........................................................................................              13


                Improvements Needed in Ensuring Results Are Achieved ..........................                                   13 

                Conclusion ..................................................................................................     16     

                Recommendation ........................................................................................           16     

                Agency Response and OIG Evaluation .......................................................                        16 


   Status of Recommendations and Potential Monetary Benefits..............................                                        18




Appendices
   A    Program Offices and Regions Submitting Results .........................................                                  19 


   B    Agency Response to Draft Report and OIG Evaluation..................................                                      20 


   C    Distribution .........................................................................................................    30 

                                  Chapter 1

                                   Introduction
Purpose
            In 2009, the U.S. Environmental Protection Agency (EPA) identified 72
            efficiency projects totaling over $33 million in savings or cost avoidances. EPA’s
            Office of Inspector General (OIG) conducted this audit to determine whether:

                  EPA’s efforts to identify and realize savings have been effective
                  Savings reported to EPA’s Office of Administration and Resources
                   Management (OARM) were accurate and complete.

Background
            In an April 2009 Cabinet meeting, President Obama called on Cabinet members
            to identify at least $100 million in collective cuts to their budgets, separate from
            those identified in their fiscal year (FY) 2010 budgets. To prepare for upcoming
            Presidential and Office of Management and Budget (OMB) initiatives, the
            Assistant Administrator for OARM, in an August 24, 2009, e-mail titled
            “Management Reform Agenda-Response Due September 17, 2009,” requested all
            program offices and regions to identify efficiency projects. The e-mail stated:

                   As part of his Management Reform Agenda, the President
                   continues to challenge agencies to identify cost-saving measures
                   that will result in a more efficient and effective government. On
                   July 27, 2009, the OMB Director issued a memorandum that
                   identifies 77 cost-saving measures amounting to $243 million in
                   savings through 2010. I encourage each of you to review and share
                   with your senior leadership team the various projects identified by
                   Federal agencies to see if similar projects could be initiated at
                   EPA. In addition, I am once again asking each of you to look at the
                   wide array of environmental programs you administer and identify
                   3 efficiency projects you and your organization will undertake in
                   support of the President’s Reform Agenda over the next year.
                   These projects should be items initiated in 2009 or planned for the
                   upcoming year. Please provide a brief, one paragraph description
                   of each project that can be shared with OMB and the White House.
                   Your submissions should also include the proposed or actual start
                   date and expected timeframe of the initiative, a primary point of
                   contact, as well as an estimate of projected dollar savings or cost
                   avoidance and expected results. Each program and regional office



13-P-0028                                                                                      1
                         should submit their three efficiency projects no later than
                         Thursday, September 17, 2009.

                 By September 2009, EPA program offices and regions had submitted 72 projects,
                 which varied widely in scope and totaled over $33 million in anticipated savings
                 and cost avoidances (see appendix A). Table 1 below summarizes data submitted
                 in 2009. In January 2011, OARM provided an updated spreadsheet for the same
                 projects that showed savings and cost avoidances over $21 million.

                 Table 1: List of 72 cost-cutting projects as of September 2009
                   No. of Projects      Anticipated Savings/Cost Avoidances
                          63          $400,000 and under
                          3           $401,000 to under $1 million
                          4           $1 million to under $2.5 million
                          1           $2.5 million to under $19 million
                          1           $19 million and above
                          72          $33 million
                 Source: OIG analysis of EPA data.

                 According to OMB Circular A-123, Management’s Responsibility for Internal
                 Control, program managers are responsible for achieving desired results through
                 the efficient and effective use of resources. In addition, numerous internal and
                 external memorandums and initiatives have continued to request agencies to
                 identify efficiencies, savings, and cost avoidances. For the purposes of this audit,
                 efficiencies include savings, cost avoidances, and other projects that operate with a
                 high ratio of output (end product) to input (resources used).

                 Superfund Projects Reported to OARM

                 The Superfund program addresses contamination from uncontrolled releases at
                 Superfund hazardous waste sites that threaten human health and the environment.
                 The 72 cost-cutting projects included two Superfund initiatives identified by
                 Regions 4 and 7 that totaled over $14 million in savings and cost avoidances. We
                 chose to review these two projects because one represented the largest estimated
                 savings and cost avoidances out of the 72 initiatives, and the other had a high
                 reported dollar amount of savings and cost avoidances.

                 Region 7’s FY 2011 Superfund budget totaled $116 million.1 The Office of
                 Superfund Remediation and Technology Innovation (OSRTI) encourages
                 program staff, procurement offices, and the supporting contractors to use
                 innovative technologies, approaches, and/or site-specific contracts (generally
                 fixed-price type contracts) for remedial activities to minimize costs and streamline
                 schedules. The Office of Acquisition Management (OAM), an office within

1
  OIG extracted enforcement cost data from the Integrated Financial Management System database, February 2011.
It includes these accounts: Hazardous Substance Superfund (T), Superfund Carry Over (TC), Superfund
Reimbursables (TR & TR1), Superfund Special Account-Nonfederal Unearned (TR2), and Special Account Past
Cost and Other (TR2B).


13-P-0028                                                                                                        2
                  OARM, is responsible for policies, procedures, operations, and support for the
                  Agency’s procurement and contracts management program. In September 2010,
                  OAM issued “An Acquisition Guide for Executives” that states one way to fulfill
                  OAM’s primary purpose of providing functional direction and control over
                  Agency acquisition is to use contract types that facilitate performance excellence
                  and cost savings and minimize risk. In addition, OAM and the Office of Solid
                  Waste and Emergency Response (OSWER) created a Superfund acquisition
                  strategy with a focus on identifying and improving acquisition practices and
                  processes to maximize cost efficiencies. During FY 2009, Region 7 reported cost
                  avoidances of approximately $13.4 million based on the difference between the
                  Independent Government Cost Estimates (IGCEs) and contract amounts awarded
                  for construction activities at two sites.

                  Region 4’s FY 2011 Superfund budget totaled $97 million.2 Region 4’s Superfund
                  program conducts assessment activities (i.e., preliminary assessments/site
                  inspections, expanded site inspections, or removal site evaluations) on more than
                  50 sites each year. Region 4 implemented a new enforcement strategy not to
                  pursue cost recovery actions in cases where further federal or state action is
                  determined unnecessary, thus allowing it to use its enforcement resources at sites
                  warranting further action. The region reported that this new strategy resulted in
                  estimated cost avoidances of $610,000, which included $380,000 in FY 2010 and
                  a projected $230,000 in FY 2011.

Noteworthy Achievements
                  OARM took the initiative to involve EPA offices and regions in identifying
                  potential efficiencies and savings initiatives and collected data in September 2009
                  on 72 projects with potential estimated savings and cost avoidances of over
                  $33 million. In January 2011, EPA offices and regions lowered their estimated
                  savings and cost avoidances to $21 million.

Scope and Methodology
                  We conducted this performance audit in accordance with generally accepted
                  government auditing standards. Those standards require that we plan and perform
                  the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                  for our findings and conclusions based on our review objectives. We believe that
                  the evidence obtained provides a reasonable basis for our findings and
                  conclusions based on our audit objectives.

                  We conducted the audit from January 2011 to September 2012. From the 72
                  projects submitted by 21 program offices and regions, we selected two Superfund
                  projects identified in the background section above for a detailed review. We

2
 This total represents the same accounts listed in footnote 1, except the IFMS report did not include any funds for
Superfund Reimbursable TR1.


13-P-0028                                                                                                             3
                   selected the two projects because they had reported high dollar savings and cost
                   avoidances. We contacted representatives from the Office of the Chief Financial
                   Officer (OCFO), OARM, OSWER, Office of Enforcement and Compliance
                   Assurance (OECA), and Regions 4 and 7. For background purposes, we obtained
                   overall Superfund budget information.

                   We reviewed circulars, regulations, guidance, and other documents to gain an
                   understanding of the requirements and processes used to estimate, manage, and
                   report on savings and cost avoidances. The specific documents reviewed
                   included:

                          OMB Circular A-123
                          U.S. Government Accountability Office’s report GAO/AIMD-00-21.3.1,
                           Standards for Internal Controls in the Federal Government
                          Federal Accounting Standards Advisory Board (FASAB) Statements of
                           Federal Financial Accounting Concepts and Standards
                          Federal Acquisition Regulation (FAR), Parts 13, 14, 15, and 36
                          Superfund Implementation Manual (OSWER 9200.3-14-1G-V)

                   For benchmarking purposes, the U.S. Department of Justice (DOJ) provided us a
                   copy of the memoranda to their agency heads titled “Department of Justice
                   Savings and Efficiency,” dated June 4, 2009, and “Establishment of Attorney
                   General, Advisory Council for Savings and Efficiencies (SAVE Council),” dated
                   July 22, 2010, on its processes and procedures used to reduce department costs
                   and improve efficiency. These memoranda assisted us in identifying similar best
                   business practices for EPA.

                   According to OMB Circular A-123, financial reporting includes financial
                   statements, budgetary reports, and other significant internal and external financial
                   reporting. We analyzed OMB and EPA guidance to determine financial reporting
                   requirements. We discussed with OARM and OCFO staff their procedures to
                   track whether EPA achieved the anticipated savings. To understand how the
                   regions estimated the reported savings, we interviewed managers and directors in
                   OSWER, OECA, and Regions 4 and 7. In addition, we obtained supporting
                   documentation maintained at EPA Regions 4 and 7 to determine whether the
                   regions achieved the savings and the amounts reported to OARM were accurate
                   and complete. The supporting information for Region 7 included awarded
                   contracts and IGCEs.

                   We used the Comprehensive Environmental Response, Compensation, and
                   Liability Information System (CERCLIS) and the Integrated Financial
                   Management System (IFMS) databases3 to determine whether the enforcement
                   cost avoidances reported by Region 4 were accurate and complete. We did not
                   assess the internal controls over CERCLIS and IFMS from which we obtained

3
    On October 1, 2011, Compass Financial replaced IFMS.


13-P-0028                                                                                             4
                 reports. Rather, we relied on the review of IFMS conducted during the audit of
                 EPA’s FYs 2009 and 2010 financial statements for current Superfund cost data
                 and a 20024 audit of CERCLIS for site assessment data. We reviewed
                 recommendations in the Management’s Audit Tracking System (last modified in
                 2004) for the CERCLIS audit and verified that EPA took corrective action based
                 on reviewing the Superfund implementation manual and CERCLIS data quality
                 reports.

                 Prior EPA OIG Reports

                 The EPA OIG issued the following reports with findings related to estimating
                 savings and CERCLIS data quality:

                      	 Report No. 2011-P-0333, Office of Research and Development [ORD]
                         Needs to Improve its Method of Measuring Administrative Savings,
                         July 14, 2011. The report stated that ORD estimated that the
                         Administrative Efficiencies Project would save up to $13 million in
                         administrative staffing costs annually when fully implemented in 2012 and
                         that the Information Technology Improvement Process saved $2 million in
                         2007. OIG reported that ORD’s efforts to reduce its administrative costs
                         are noteworthy, but ORD needs to improve its measurement mechanism
                         for assessing the effectiveness of its initiatives to reduce administrative
                         costs. ORD only completed two surveys on staff whose time was spent on
                         administrative activities. The surveys only reported on a select number of
                         ORD staff, not all ORD staff. OMB Circular A-123 states, “. . . reliable
                         and timely information is obtained, maintained, reported, and used for
                         decision making.” Without such reliable and timely information, ORD
                         lacks an adequate measure of how its resources are actually used.

                      	 Report No. 2002-P-00016, Comprehensive Environmental Response,
                         Compensation, and Liability Information System (CERCLIS) Data
                         Quality, September 30, 2002. The report stated that users of CERCLIS
                         data did not have accurate and complete information regarding the status
                         and activities of Superfund sites, which could adversely affect planning
                         and management. These weaknesses were caused by the lack of adequate
                         internal controls over CERCLIS data quality. The report included
                         recommendations to improve controls over CERCLIS data quality.
                         Recommendations included developing and implementing a quality
                         assurance process for CERCLIS data and updating the CERCLIS policies
                         and procedures.




4
  In response to the OIG Report No. 2002-P-0016, Comprehensive Environmental Response, Compensation, and
Liability Information Systems Data Quality, dated September 30, 2002, EPA completed CERCLIS corrective actions
in 2004. Region 4’s cost avoidance calculations included CERCLIS-recorded site assessments completed during the
time period after corrective actions took place. The site assessment time periods include FYs 2006, 2007, and 2008.


13-P-0028                                                                                                        5
                                   Chapter 2

                 Enhanced Methods Needed to 

            Determine Savings and Cost Avoidances 

             While Regions 4 and 7 took the initiative to identify potential savings and cost
             avoidances, they did not use reliable methods to determine potential savings and
             cost avoidances. Management is responsible for assuring efficient and effective
             operations and reliable financial reporting including development of savings or
             cost avoidance initiatives. EPA does not have a policy describing what constitutes
             savings/cost avoidances and the methodology for calculating them. Without
             effective policies and procedures for estimating savings and cost avoidances,
             EPA will not be able to accurately report the results of its efficiency initiatives
             and influence internal and external management decisions.

Improvements Needed in Determining Savings and Cost Avoidances
             OMB Circular A-123 states that management establishes and maintains internal
             control to achieve effective and efficient operations, reliable financial reporting,
             and compliance with laws and regulations. Financial reporting includes the annual
             financial statements and other significant internal or external financial reports.
             Other significant financial reports are any financial reports that could have a
             material effect on spending, budgetary, or other financial decisions or could be
             used to determine compliance with laws and regulations. The circular also states
             that information should be relevant, reliable, and timely.

             FASAB’s Statements of Federal Financial Accounting Concepts and Standards
             defines avoidable cost as a cost associated with an activity that would not be
             incurred if the activity were not performed. OMB memorandum M-09-25, dated
             July 2009, and additional clarifying guidance explained how the agency should
             establish savings. The additional guidance emphasized that for each identified
             initiative, the agency should establish savings by explaining the difference
             between what would have been spent in the absence of the savings initiative and
             what the agency expects to spend in pursuing the initiative.

             FAR requires preparation of an independent government estimate of construction
             costs. The estimate shall be prepared in as much detail as though the government
             were competing for the award. OAM guidance states that if there are significant
             differences between the IGCE and a proposal, responsible individuals should
             closely analyze the differences to understand why they occurred and how they
             may affect future estimates.




13-P-0028                                                                                       6
            Unreliable Method Used for Calculating Region 4 Savings

            In December 2008, Region 4’s Superfund Division issued a memorandum
            implementing its new strategy not to expend resources on enforcement activities
            for sites that did not warrant further state or federal action. Enforcement activities
            include searching for potentially responsible parties (PRPs), issuing demand
            letters, negotiating settlements, and preparing enforcement decision documents to
            write off costs associated with assessment activities. In September 2009, Region 4
            estimated the potential annual average cost avoidance of approximately $200,000
            for FY 2009, 2010, and 2011. In January 2011, Region 4 updated the estimated
            cost avoidance amount to $610,000 ($380,000 cost avoidance in FY 2010 with a
            projected additional cost avoidance of $230,000 in FY 2011). Figure 1 depicts
            how Region 4 estimated the cost avoidances:

            Figure 1: Region 4 formula for calculating cost avoidance

              Sites          X       Enforcement Cost X    Discount Rate = Cost
              (Identified            (Identified in         (Region 4     avoidance
              in CERLIS)             a report)             judgment)

            Source: OIG analysis of EPA data.

            Region 4 based the potential cost avoidance estimates for site assessment and
            enforcement on outdated and incomplete information.

                Outdated Information

                The region used the PRP determination estimated cost identified in the
                September 2010 report titled PRP Search Benchmarking and Regional
                Practices Evaluation. The report identified $10,000 as the median cost for
                PRP determination based on FYs 1999 to 2005 IFMS data.

                Incomplete Information

                The report titled PRP Search Benchmarking and Regional Practices
                Evaluation, dated September 2010, used by Region 4 includes only the cost
                associated with PRP searches. However, Region 4’s memorandum “Recovery
                of Superfund Site Assessments Costs Strategy” describes other enforcement
                activities such as “issue demand letters, negotiate settlements, or prepare
                enforcement decision documents to write off the costs associated with
                assessment activities.” The cost associated with these other activities is
                missing from Region 4’s calculation, so the calculation of the cost is
                incomplete.




13-P-0028                                                                                        7
            Unreliable Method Used for Calculating Region 7 Savings on Site-
            Specific Contracts

            During FY 2009, Region 7 reported that it awarded several site-specific contracts
            for construction activities at Superfund sites. Region 7 stated that these contracts
            have allowed it to realize cost avoidances of approximately $13.4 million.
            Region 7 based the estimate on the difference between the IGCE and contract
            amounts awarded for construction activities at two sites.

            The method Region 7 used to determine its potential savings and cost avoidances
            on construction contracts at specific Superfund sites was not reliable. Comparison
            of an IGCE to a contract award amount for a construction contract at a specific
            site does not assist in determining savings and cost avoidances as defined by
            FASAB and OMB. FASAB states that savings key elements include an activity
            that was not performed. OMB states that savings key elements include the
            difference between what would have been spent in the absence of the savings
            initiative and what was actually spent. Neither the IGCE nor the awarded contract
            identifies those key elements. The methodology for determining savings or cost
            avoidance should have compared the site-specific approach for Superfund
            construction to the method previously used.

            Although Region 7 stated it used historical data from prior contract(s) to create an
            IGCE, Region 7’s IGCE did not show the connection to the prior contract’s cost,
            improved initiative, or excluded requirements. In addition, according to the FAR,
            the IGCE shall be prepared on the basis of a detailed analysis of the required work
            as though the government were submitting a proposal. It would not include
            actions or requirements and their associated costs no longer needed. Therefore,
            EPA cannot determine cost avoidance and savings by merely comparing an IGCE
            to a contract award. Neither regulation nor guidance states that the differences
            between an IGCE and the contract price are savings or cost avoidances.

            No EPA Policy Describes the Procedure for Determining Monetary
            Efficiencies

            The Agency does not have policies defining savings, efficiencies, and cost
            avoidances. Given the quick turnaround for developing the efficiency projects,
            Region 4 relied on the benchmarking study and did not get current and complete
            enforcement costs from financial experts within the region. Policy should include
            a process for consulting with financial experts to assist in determining savings
            amounts.

            OAM officials stated that the ability to monetize the savings and cost avoidances
            from acquisition efficiencies is a challenge because no credible methodology
            exists to date. EPA needs to implement policy describing a more reliable
            approach that would include comparing the price for the prior contract with the
            contract award to identify savings. Comparing contracts would show the different



13-P-0028                                                                                      8
            actions taken and their associated costs. The OMB M-09-25 additional guidance
            also identifies this methodology.

            Reported Savings Methodology Used Could be Misleading

            Region 4 reported its savings to OARM. Claims of reported efficiencies may lead
            to others applying the same methods on other initiatives, and reporting such data
            may result in misstated amounts and inaccurate reporting. The misstated amounts
            and inaccurate reporting could affect the management decisions for site
            assessment in determining more cost effective and time efficient methods to
            assess sites.

            Region 7 also reported its savings to OARM. Claims of reported efficiencies may
            lead to others applying the same methods on other initiatives and reporting such
            methodology internally and externally (i.e., to OMB). Region 7 reported savings
            achieved in the IFMS database, EPA’s official accounting system used for
            financial reporting. Region 7 reported the following in the IFMS database, to
            explain returning $2.1 million in American Recovery and Reinvestment Act of
            2009 (ARRA) funds:

                   Reprogramming ARRA funds back to headquarters. These funds
                   are the result of site-specific contracts being awarded for less than
                   EPA’s IGCE; thus realizing a cost savings.

            Even though Region 7 developed a site-specific contracting initiative for
            savings/cost avoidance, it was not reported to OMB. However, in November
            2010, OAM responded to the OMB memo dated July 2009 titled “Improving
            Government Acquisition” and reported to OMB savings and cost avoidances
            developed by other regions. An OAM report, “Achieving Contract Savings”
            stated that EPA competitively awarded a firm-fixed-price contract for remedial
            construction at two Superfund sites in other regions, saving close to $6 million.
            The amount saved was the difference between the IGCEs originally developed for
            acquiring these services and the final price of the resultant award. OAM reported
            that savings were determined by awarding contracts for less than EPA’s IGCE.
            This practice is contrary to FASAB and OMB guidance. In addition, OMB then
            highlighted OAM reported savings developed by the other regions in a
            congressional testimony dated July 15, 2010. In this instance, they should have
            used the prior contract instead of the IGCE to determine the savings amount.

Conclusion
            EPA needs sound procedures for identifying savings resulting from its initiatives.
            An OMB memorandum for the Chief Financial Officers of Executive
            Departments and Agencies, dated June 28, 2011, stated that the federal
            government should take common sense, pragmatic steps to cut costs where
            possible and eliminate practices that are antiquated or unnecessary. According to


13-P-0028                                                                                    9
            the memo, government agencies should not hide these inefficiencies, but should
            rather examine them publicly and apply logical fixes that others can learn from
            and leverage. By using current and complete enforcement costs to determine
            estimated savings and communicating with regional budget and financial
            personnel to identify total costs saved, Region 4 could better estimate the cost
            avoidances. Comparing the prior contract with the resultant contract price is a
            more reliable approach for determining cost savings or avoidance because
            comparing the two would show the improved efficiencies, which include not only
            costs but actions not taken.

Recommendations
            We recommend that the EPA Chief Financial Officer:

               1.	 Develop an Agency-wide policy that defines what the Agency considers
                   cost savings, efficiencies, and avoidances.

               2.	 Develop an Agency-wide procedure for estimating savings, efficiencies,
                   and cost avoidances to include requiring program offices and regions to
                   consult with internal financial managers to obtain complete and up-to-date
                   cost data.

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               3.	 Develop a policy on estimating savings and cost avoidances relating to
                   contracts based on similar prior contract data that will show the actions not
                   taken or improved operations as opposed to using the IGCEs.

            We recommend that the Regional Administrator, Region 4:

               4.	 Recalculate the cost avoidance based on current and complete
                   enforcement cost data.

               5.	 Report the cost avoidance to OCFO and OARM.

            We recommend that the Regional Administrator, Region 7:

               6.	 For Region 7’s audited initiative, identify the improved activities or
                   activities not taken in the awarded contract(s) associated with the original
                   calculation to determine whether cost avoidance exists.

               7.	 Recalculate the cost avoidance estimate based on the difference between
                   the awarded contract and similar prior contract prices.

               8.	 Report the cost avoidance to OCFO and OARM.


13-P-0028                                                                                     10
Agency Response and OIG Evaluation
            We received draft report comments from OCFO, OARM, and Regions 4 and 7 on
            July 20, 2012.

            OCFO disagreed with our recommendations 1 and 2 and stated the Agency
            maintains that introducing formality into the early stages of idea generation would
            severely hinder innovation and creativity. We do not agree with the Agency
            response. The actual verbiage of the OARM e-mail, dated August 2009, did not
            describe projects as ideas. OMB Circular A-123 also states that internal controls,
            which include policies and procedures, help organizations achieve results and
            should be an integral part of the entire cycle of planning, budgeting, management,
            accounting, and auditing. Regardless of whether the projects are developed at the
            early stage of the idea generation, a clear definition of each estimating method
            and consistent estimating methods Agency-wide would help ensure accurate,
            proactive measurement and reporting of the desired results of achieving cost
            savings, avoidances, and/or efficiencies by program offices and regions.

            OARM disagreed with our recommendation 3. However, OARM believes that
            there is a government-wide need to establish and institutionalize standards and
            methodologies for determining cost savings and avoidances resulting from
            contracting initiatives and approaches that fall under formal processes. We found
            OMB already established guidance that identified a government wide standard
            and methodology on what is needed for determining cost savings and avoidances.
            OMB memorandum M-09-25, dated September 2009, and OMB additional
            guidance explain how the agency should establish savings. To implement the
            OMB additional guidance, EPA should have an Agency policy describing its
            prescribed method for estimating contract savings/cost avoidances to ensure
            consistency in measuring/estimating savings by program offices and regions.

            Region 4 disagreed with our recommendations 4 and 5. Region 4 stated that since
            this project was an idea and has not been fully examined, evaluated, or accepted
            by the Agency, the effort to recalculate the cost avoidance is not warranted. We
            do not agree with the Region 4 response. The Regional Director for Region 4
            already took action by issuing a memorandum that documented the new strategy
            implemented for this initiative, so the project is no longer an idea.

            Region 7 disagreed with our recommendations 6, 7, and 8. Region 7 does not
            believe that the OIG’s definition of cost avoidance applies to the submitted
            activities. The OIG definition only considers “activities not taken.” Cost savings,
            however, may arise as a result of contracting activities. Furthermore, based upon
            the OIG’s definition of cost avoidance or cost savings, the awarded contracts did
            not meet this definition. Therefore, there is no basis to recalculate the cost
            avoidance and report the corrected cost avoidance. We do not agree with the
            Agency response. The OIG does not disagree with the fact that the IGCE may
            have included historical costs. However, the IGCE had to have included other
            costs based on the new requirements. We used OMB additional guidance that


13-P-0028                                                                                     11
            included a methodology to determine savings. According to OMB M-09-25
            additional guidance, there are two important parts to developing the savings and
            cost avoidances: (1) cost reductions and (2) a description of the actions not taken.
            Comparing the IGCE with the awarded contract does not provide a description of
            actions not taken or identify where cost was reduced. A clear justification for why
            the awarded contract price is significantly lower was not provided, nor did it
            identify cost reductions or action not taken. Furthermore such cost discrepancies
            call into question the accuracy of the IGCE. OAM guidance states that if there are
            significant differences between the IGCE and a proposal, responsible individuals
            should closely analyze the differences to understand why they occurred and how
            they may affect future estimates. Had this been done, Region 7 may have been
            able to identify cost reductions and a description of the actions not taken to
            achieve cost savings.

            OCFO responded to recommendation 7. OCFO explained that the Agency allows
            local offices flexibility and does not mandate the use of Superfund site-specific
            contracts. In response to the “OCFO Note,” the issue is not with using the site-
            specific contracting approach, it is with the methodology of comparing the IGCE
            to the newly awarded contract. We have not been given the explanation or support
            as to why site-specific contracting is the best contract approach to achieve cost
            savings.




13-P-0028                                                                                     12
                                    Chapter 3

            EPA Follow-Up Efforts Needed to Optimize 

                 Savings and Cost Avoidances 

              While OARM took the initiative to lead the identification of potential savings and
              cost avoidances for all Agency programs and regions, it did not follow up on
              implementation of the 72 efficiency projects reported to OARM during the period
              November 2010 through January 2011 to ensure that the projects actually resulted
              in savings, cost avoidances, and other efficiencies. OMB Circular A-123 requires
              program and financial managers to achieve desired outcomes (savings and cost
              avoidances). OARM did not follow up on these efficiency efforts because EPA
              viewed the projects as merely ideas for possible cost savings that did not require
              reporting, including to OMB. Nevertheless, without following up on the progress
              in achieving desired and expected savings and efficiencies, EPA may have missed
              opportunities to leverage and expand its cost-cutting efforts, apply best practices
              for gaining greater efficiencies, and realize significant savings and cost
              avoidances Agency-wide.

Improvements Needed in Ensuring Results Are Achieved
              An OMB memorandum, titled “Campaign to Cut Waste,” dated June 28, 2011,
              stated:

                     …[T]he federal government should take common sense, pragmatic
                     steps to cut costs where possible and eliminate practices that are
                     antiquated or unnecessary. Government agencies should not hide
                     these inefficiencies, but should rather examine them publicly and
                     apply logical fixes that others can learn from and leverage.…
                     agencies should also leverage ideas from the federal workforce by
                     reviewing and incorporating ideas.…

                     This memorandum outlines a path forward for agency Chief
                     Financial Officers (CFO’s) [sic] to promote such steps internally
                     and work together to cut costs and drive efficiencies government-
                     wide. Execution of the steps outlined in this memorandum is an
                     essential component of the recent executive order, in which the
                     President called for a government that cuts waste and is fully
                     accountable to the American public. As part of this executive
                     order, the President charged federal CFO’s [sic] with ramping up
                     efforts to identify, execute, and report on administrative cost
                     savings within the agencies.



13-P-0028                                                                                     13
            OMB Circular A-123 states that internal controls—organization, policies, and
            procedures—are tools to help program and financial managers achieve results.
            Management should have a clear, organized strategy with well-defined
            documentation processes that contain an audit trail and verifiable results. The
            GAO report GAO/AIMD-00-21.3.1, Standards for Internal Controls in the
            Federal Government, November 1999, states that internal control helps
            government program managers achieve desired results through effective
            stewardship of public resources.

            For benchmarking purposes, we examined the DOJ follow-up policies and
            procedures implemented to ensure savings and efficiencies were achieved. In
            June 2009, DOJ implemented a pilot savings program calling for ideas to reduce
            department costs and improve efficiency. In his memorandum, the Attorney
            General required that lead officials participate in the department’s working group
            to implement the ideas. The memo also stated that the department’s performance
            improvement officer would track implemented initiatives through a quarterly
            status review process. In July 2010, DOJ established the Advisory Council for
            Savings and Efficiencies (the SAVE Council) to develop and review department-
            wide savings and efficiency initiatives, and report on them.

            No Follow-Up on Projects’ Progress

            OARM requested efficiency projects from each program office and region that
            EPA could share with OMB and the White House. OARM’s request also stated
            that projects should include the proposed or actual start date and expected
            timeframe of the initiative, as well as an estimate of projected dollar savings or
            cost avoidances and expected results. In September 2009, EPA program offices
            and regions submitted 72 projects, which varied widely in scope and totaled over
            $33 million in estimated savings and cost avoidances (see appendix A). OARM
            did not follow up on these cost-cutting efforts to determine whether (1) the
            program offices and regions actually achieved the expected efficiencies, savings,
            and cost avoidances from these projects; and (2) the results could be expanded to
            achieve Agency-wide savings.

            We interviewed OARM before the audit began and again in January 2011 to
            understand what was done regarding the requested information. Because of our
            interest, OARM obtained an updated status of the 2009 reported results in January
            2011, but performed no other follow-up. The OARM e-mail request did not
            emphasize follow-up to ensure implemented initiatives resulted in savings and
            cost avoidances, and no other guidance was given to the program offices and
            regions to do so.

            OCFO staff serves a fiduciary role by monitoring and analyzing the Agency’s
            resource use, providing guidance to the Agency to ensure the proper use of
            resources, and responding to OMB initiatives on behalf of the Agency. During the
            audit, we interviewed OCFO staff to determine whether it had implemented



13-P-0028                                                                                     14
            follow-up efforts on the reported savings and cost avoidances. OCFO staff have
            processes and procedures to obtain efficiency initiatives from EPA program
            offices and regions. However, OCFO did not take the lead in this case, and there
            was a lack of coordination between OARM and OCFO on the 72 initiatives.

            EPA Treated the 72 Projects as Ideas for Potential Savings and
            Cost Avoidances

            OARM staff viewed the 72 projects as merely ideas to use for upcoming
            Presidential reform initiatives, but EPA did not send any of the projects to OMB
            and OMB did not request them. The OARM official we interviewed stated that
            had OMB required the submission of these efficiencies, OARM would have
            gathered more data and relied on program and regional managers to verify or
            validate savings and efficiencies. OARM stated that it does not have the official
            responsibility for oversight of these 72 projects. Consequently, no one was held
            accountable to determine whether program offices and regions realized expected
            savings and efficiencies from the implementation of the projects.

            The Deputy Director of the Office of Budget, an office within OCFO, categorized
            the 72 projects as merely ideas for cutting or avoiding costs. According to the
            Deputy Director, the projects are efficiencies that allow program offices and
            regions to reprioritize their funding resources to carry out their operations. The
            Office of Budget is not involved unless the savings reduce the budget or require a
            budget increase to obtain further savings in future years. The Deputy Director
            stated that OCFO identified other higher priority initiatives as part of each budget
            process, but not the 72 projects. During conferences and meetings with program
            offices and regions on the budget, the Office of Budget staff stated that they
            discussed efficiencies and savings initiatives for inclusion in the budget
            submission. Office of Budget staff also stated that monitoring and providing
            additional requirements for every initiative to ensure achieving savings and
            efficiencies would stifle innovation and creativity. Although the Office of Budget
            has budget oversight, the Deputy Director told us that the regions or program
            offices are responsible for achieving savings and efficiencies from their projects.
            OIG agrees that program offices and regions are responsible for achieving savings
            and efficiencies from their projects. However, OCFO needs to ensure that the
            program offices and regions achieve each significant savings and cost avoidance
            through periodic tracking and reporting of the results.

            Potential Agency-Wide Implementation

            EPA did not determine whether program offices and regions achieved the
            estimated $33 million in savings and/or cost avoidances (later reduced to
            $21 million) and whether the Agency could have achieved greater savings by
            implementing the projects in other offices and regions. Assessment of these or
            other cost-saving projects can further help EPA identify lessons learned, best
            practices, or successes for possible implementation Agency-wide for greater cost



13-P-0028                                                                                    15
            savings and efficiencies. This assessment would also demonstrate EPA’s
            commitment to being a good steward of taxpayer dollars. The June 28, 2011,
            OMB memorandum titled “Campaign to Cut Waste” provided specific criteria to
            use past actions that have resulted in broad and significant cost savings. Specifically,
            the memo stated:

                    To begin the process of collecting and synthesizing Government
                    practices that cut costs and improve efficiencies, I am requesting
                    the following steps be taken by each CFO:
                    1. Initiate within your agency the collection and inventory of
                    existing examples, practices, and success stories of efforts to
                    improve efficiency, avoid unnecessary expenditures, and cut costs.
                    This should include cost-cutting initiatives completed in the past,
                    those that are currently underway, and those that your agency is
                    planning to launch. Examples should include efforts that are broad
                    and have resulted in significant cost savings….

Conclusion
            Since 2009, OMB and the White House have required agencies to identify savings
            and cost avoidances in the form of efficiencies. In addition, the President charged
            federal CFOs with ramping up efforts to identify, execute, and report on
            administrative cost savings within the agencies. This process involves promoting
            steps to cut cost and drive efficiencies agency-wide. By assessing its
            implementation progress on projects identified, the Agency would be able to
            determine whether it is on track to achieve the anticipated savings and avoided
            costs and identify the challenges or greatest successes and best practices for
            potential Agency-wide implementation to further increase efficiencies.
            Additionally, the identified savings and efficiencies could serve as examples of
            successful Agency efficiency efforts for reporting to the CFO Council for
            potential implementation government-wide.

Recommendation
            We recommend that the EPA Chief Financial Officer:

                9.	 Select significant projects from the 72 initiatives in light of the recent
                    OMB memorandum “Campaign to Cut Waste” to determine if these
                    efforts have resulted in significant savings and cost avoidances and
                    publicly examine and apply logical fixes so that others can learn from and
                    leverage cost savings for Agency-wide implementation.

Agency Response and OIG Evaluation
            OCFO does not agree with recommendation 9 as originally presented. OCFO
            stated that the Presidential SAVE initiative evaluates ideas collected directly from


13-P-0028                                                                                         16
            federal employees and is not an appropriate reporting mechanism. The Agency is
            actively involved in pursuing efforts that contribute to the “Campaign to Cut
            Waste” and the Presidential SAVE Initiative and has already reported on ideas
            from the list of 72 ideas. We agree with the OCFO response to not report
            significant efficiencies through the Presidential SAVE initiative. OCFO identified
            ideas similar to the 72 initiatives developed as part of the Agency-wide effort to
            avoid costs and achieve savings and efficiencies. Even though the SAVE program
            may not be used, the concept addressed in the “Campaign to Cut Waste” memo
            states that agencies should publicly examine and apply logical fixes so that others
            can learn from and leverage cost savings for Agency-wide implementation. We
            revised recommendation 9 to include the modified OIG position.




13-P-0028                                                                                    17
                               Status of Recommendations and
                                 Potential Monetary Benefits
                                                                                                                              POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                  Planned
 Rec.     Page                                                                                                   Completion   Claimed    Agreed-To
 No.       No.                          Subject                          Status1        Action Official             Date      Amount      Amount

   1       10     Develop an Agency-wide policy that defines what          U         Chief Financial Officer
                  the Agency considers cost savings, efficiencies,
                  and avoidances.

   2       10     Develop an Agency-wide procedure for estimating          U         Chief Financial Officer
                  savings, efficiencies, and cost avoidances to
                  include requiring program offices and regions to
                  consult with internal financial managers to obtain
                  complete and up-to-date cost data.

   3       10     Develop a policy on estimating savings and cost          U       Assistant Administrator for
                  avoidances relating to contracts based on similar                   Administration and
                  prior contract data that will show the actions not                Resources Management
                  taken or improved operations as opposed to using
                  the IGCEs.

   4       10     Recalculate the cost avoidance based on current          U        Regional Administrator,
                  and complete enforcement cost data.                                     Region 4

   5       10     Report the cost avoidance to OCFO and OARM.              U        Regional Administrator,
                                                                                          Region 4

   6       10     For Region 7’s audited initiative, identify the          U        Regional Administrator,
                  improved activities or activities not taken in the                      Region 7
                  awarded contract(s) associated with the original
                  calculation to determine whether cost avoidance
                  exists.

   7       10     Recalculate the cost avoidance estimate based on         U        Regional Administrator,
                  the difference between the awarded contract and                         Region 7
                  similar prior contract prices.

   8       10     Report the cost avoidance to OCFO and OARM.              U        Regional Administrator,
                                                                                          Region 7

   9       16     Select significant projects from the 72 projects in      U         Chief Financial Officer
                  light of the recent OMB memorandum “Campaign
                  to Cut Waste” to determine if these efforts have
                  resulted in significant savings and cost avoidances,
                  and publicly examine and apply logical fixes so that
                  others can learn from and leverage cost savings for
                  Agency wide implementation..




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is unresolved with resolution efforts in progress




13-P-0028                                                                                                                                       18
                                                                                                  Appendix A

     Program Offices and Regions Submitting Results
In September 2009, 10 regions and 11 program offices submitted projects with one-time and
multiple-year savings, cost avoidances, and other efficiencies. The projects varied widely in
scope of work and the anticipated savings and cost avoidances, as shown below.

Initial spreadsheet dated September 2009
     72 initiatives totaling over $33 million for savings and cost avoidances
     10 of 72 projects with individual estimated annual and one-time cost avoidances or
        savings of $500,000 and greater
     16 of 72 projects with estimated cost avoidances or savings each in the range of $100,000
        to $500,000
     28 of 72 projects with estimated annual/one-time cost avoidances or savings under
        $100,000
     Remaining 18 projects reported cost avoidances, savings, or other efficiencies as “to-be-
        determined” or “unknown”

Revised spreadsheet dated January 2011
    72 projects but estimated savings and cost avoidance changed to over $21 million

    15 of 72 not implemented (postponed to 2011, insufficient funding, etc.) 

    57 of 72 implemented: 

          o 26 had cost avoidances or savings quantified at $21 million
          o 31 could not quantify amounts or the cost avoidances or savings were not realized

Top 10 projects (by highest reported amount of savings and cost avoidance)5

                                            Original                  Revised                    Office
 1. SF Construction Contracts               $19 million               $13.4 million              Region 7
 2. Phone Service Cost                      $5 million                same                       Region 3
 3. Contract Air City Pair                  $2.5 million              $0                         OCSPP
 4. Building Re-Commissioning               $1.5 million              same                       OARM
 5. Regional Recycle Program                $1 million                $628,000                   Region 4
 6. Web Management System                   $1 million                same                       OW
 7. Electric Power Reductions               $705,000                  same                       Region 2
 8. Direct Power Supply                     $626,000                  same                       Region 9
 9. SF Site Assessment/Enf.                 $600,0006                 $610,000                   Region 4
10. Strategic Sourcing Initiative           $600,000                  $800,000                   Region 2



5
  Abbreviated terminology used for this table includes Superfund (SF), Enforcements (Enf.), Office of Chemical

Safety and Pollution Prevention (OCSPP), Office of Administration and Resources Management (OARM), and 

Office of Water (OW).

6
  This savings is estimated $200,000 annually for the 3-year period 2009–2011. 



13-P-0028                                                                                                         19
                                                                                      Appendix B

                   Agency Response to Draft Report
                         and OIG Evaluation

MEMORANDUM

SUBJECT: 	     Agency’s Response to OIG Draft Report, Improvements Needed in Estimating
               and Leveraging Cost Savings Across EPA, Project No. 2011-124

FROM: 	        Maryann Froehlich
               Deputy Chief Financial Officer

TO: 	          Melissa Heist
               Assistant Inspector General for Audit

The Office of the Chief Financial Officer (OCFO), the Office of Administration and Resources
Management (OARM), Region 4, and Region 7 appreciate the opportunity to review and
comment on the June 13, 2012, Office of Inspector General (OIG) draft report titled,
“Improvements Needed in Estimating and Leveraging Cost Savings Across EPA.”

The Agency has been committed to seeking efficiencies and cost savings for many years. The
EPA actively participates in the Campaign to Cut Waste, SAVE Awards, and other efforts. The
EPA adheres to all applicable requirements of Executive Orders calling for reduced spending,
reform and efficiencies. The EPA’s past and ongoing efforts to identify, monitor and track cost-
saving measures have resulted and will continue to result in savings and cost avoidances to
create a more efficient and effective government.

The draft report reviews a list of ideas identified by program offices and regions for potential
savings and cost avoidances. It recommends that a formal structure be implemented for
calculating savings estimates, and that the existing estimates be recalculated. In addition, the
report recommends leveraging items from among the list of ideas that was reviewed. The
recommendations do not reflect the purpose for the exercise – essentially a brainstorming – and
do not recognize the degree to which these and similar ideas were incorporated into more formal
savings efforts as appropriate. Baselines and solid estimates are needed and developed at that
point, rather than at the ‘idea generation’ stage. Innovative and creative ideas are the goal of the
initial effort and a burdensome set of estimation procedures will inhibit the flow of ideas.

There are a number of areas where the Agency has put structured procedures in place to continue
to find savings and cost avoidances and follow through on results. For example, beginning with
the FY 2010 President’s Budget continuing through FY 2013, the Agency has demonstrated our
commitment by selecting, monitoring and reporting on a total of six Presidential SAVE projects.
The projects include: (1) IT Infrastructure Streamlining, (2) Space Consolidation for Rent
Savings, (3) Bundling Maintenance Agreements for Capital Equipment, (4) Electronic Emissions
Reporting, (5) Reduce Travel Costs through Video-conferencing, and (6) Administrative


13-P-0028                                                                                         20
Proceedings Paper Reduction. Also, in August 2011, the Agency submitted three ideas to OMB
for the Campaign to Cut Waste: (1) IT Service Contract Restructuring, (2) Space Consolidation
and (3) Strategic-Sourcing for Agency-wide supplies. Frequently these efforts build off of one
another and are developed and sustained by ideas from across the Agency. While the ideas are
offered under an informal process, a formal structure is developed when it is needed and
appropriate.

Contract spending has been another focus. Under the President’s Memorandum on Government
Contracting (March 4, 2009) and OMB’s Memorandum on Improving Government Acquisition
(July 29, 2009), the Agency reviewed our existing contracts and acquisition practices and saved
over $96 million by the end of FY 2011 relative to baseline. This was followed by the November
7, 2011 OMB guidance to reduce contract spending for management support services by 15
percent by the end of FY 2012 and an additional 5 percent reduction to this type of spending was
included in the recent Campaign to Cut Waste guidance.

Another example would be energy savings. The EPA has considered and continues to look at a
variety of ways to reduce energy and resource consumption and as a result, has received
employee-generated ideas from the Agency; many of which are along the same lines as some of
the 72 suggestions OARM obtained. These efforts vary in size and complexity and include:
formal policies on mandatory commissioning on all projects that include laboratory mechanical
systems; energy assessments at high-energy-intensity and large laboratories; the Agency’s
advanced metering strategy to enable the Agency to measure, verify, and optimize performance;
and equipment upgrades and replacements.

Given the fiscal reality faced by the EPA, the Agency will continue to identify savings and cost
avoidances to preserve funding for critical priority work. Success in this requires the freedom to
think of how we may do our work differently- focusing on what is possible and not on how to fit
ideas into existing structures and guidelines.

Specific responses from OCFO, OARM, Region 4, and Region 7 to the OIG recommendations
can be found in Attachment A. We also identified a number of technical inaccuracies in the draft
report and included them in Attachment B.

If you have any questions regarding this response, please contact Barbara Freggens of my staff at
(202) 564-4906.

Attachments

cc: Craig Hooks
    Barbara J. Bennett
    Gwendolyn Keyes Fleming
    Karl Brooks
    Joshua Baylson




13-P-0028                                                                                       21
 Response to Recommendations for OIG Report: Improvements Needed in Estimating and
                       Leveraging Cost Savings Across EPA

Recommendation No. 1: “Develop an Agency-wide policy that defines what the Agency
considers cost savings, efficiencies, and avoidances.”

       OCFO Response: OCFO does not agree with this recommendation. The Management
       Reform Agenda exercise that the IG reviewed was designed to identify potential cost-
       saving ideas that could result in a more efficient and effective government. During the
       audit meetings, the IG was informed that we develop guidance and templates for projects
       when the Agency formally accepts the cost savings idea. The measures reviewed by the
       IG were in response to a call for ideas and thus, were offered as options for further
       exploration. The Agency maintains that introducing formality into the early stages of idea
       generation would severely hinder innovation and creativity.

Recommendation No. 2: “Develop an Agency-wide procedure for estimating savings,
efficiencies and cost avoidances to include requiring program offices and regions to consult with
internal financial managers to obtain complete and up-to-date cost data.”

       OCFO Response: Please see the response for recommendation number one.


       OIG Evaluation for Recommendations 1 and 2:

       We do not agree with the Agency response. The actual verbiage of an OARM e-mail in
       August 2009 did not describe projects as ideas. The e-mail requested that each program
       office and region look at the wide array of environmental programs administered and
       identify three efficiency projects, to include dates and projected dollar savings or cost
       avoidance, that the program office and regions will undertake in support of the
       President’s Reform Agenda over the next year that can be shared with OMB and the
       White House. In addition, OMB Circular A-123 states that agencies and individual
       federal managers must take systematic and proactive measures to develop and implement
       appropriate cost-effective internal controls for results-oriented management. The desired
       result of the Management Reform Agenda exercise was to obtain examples of projects
       that would achieve savings and cost avoidance. OMB Circular A-123 also states that
       internal controls, which include policies and procedures, help organizations achieve
       results and should be an integral part of the entire cycle of planning, budgeting,
       management, accounting, and auditing. Regardless of whether the projects are developed
       at the early stage of the idea generation, a clear definition of each estimating method, and
       consistent estimating methods Agency-wide, would help ensure accurate, proactive
       measurement and reporting of the desired results of achieving cost savings, avoidances,
       and/or efficiencies by program offices and regions.

Recommendation No. 3: “Develop a policy on estimating savings and cost avoidances relating
to contracts based on similar prior contract data that will show the actions not taken or improved
operations as opposed to using the IGCEs.”



13-P-0028                                                                                        22
      OARM Response: OARM does not agree with this recommendation. However, OARM
      does agree that there is a Government-wide need to establish and institutionalize
      standards and methodologies for determining cost savings and avoidances resulting from
      various contracting initiatives and approaches that fall under formal processes. To that
      end, OARM is currently participating on OMB’s Federal Strategic Sourcing initiative
      workgroup to establish such standards and methodologies.

      OIG Evaluation for Recommendation 3

      We do not agree with the Agency response. OMB already established guidance on what
      is needed. OMB memorandum M-09-25 additional guidance explained how the Agency
      should establish savings. The additional guidance emphasized that for each identified
      initiative, the Agency should establish savings by explaining the difference between what
      would have been spent in the absence of the savings initiative and what the Agency
      expects to spend because of pursuing the initiative. The memorandum also identified the
      methodology to identify savings by comparing the price on the prior/existing contract
      with the newly awarded contract after implementing the new initiative. Comparing
      contracts would show the different actions taken and their associated costs. EPA should
      have an Agency policy describing the OMB memorandum M-09-25’s prescribed method
      on estimating contract savings/cost avoidances to ensure consistency in measuring/
      estimating savings by program offices and regions.

Recommendation No. 4: Recalculate the cost avoidance based on current and complete
enforcement cost data.

      Region 4 Response: Region 4 does not agree with this recommendation. The purpose of
      the request was to identify projects that had the potential to reduce or avoid cost leading
      to a more efficient and effective government. Furthermore, as this idea has not been fully
      examined, evaluated or accepted by the Agency, the effort to recalculate the cost
      avoidance is not warranted.

Recommendation No. 5: Report the cost avoidance to OCFO and OARM.

      Region 4 Response: Please see the response for recommendation number four.

      OIG Evaluation for Recommendations 4 and 5:

      We do not agree with the Region 4 response. The Regional Director of Superfund
      Division within Region 4 already took action by issuing a memorandum that documented
      the new strategy implemented for this initiative, so the project is no longer an idea. OMB
      Circular A-123 states that agencies and individual federal managers must take systematic
      and proactive measures to develop and implement appropriate cost-effective internal
      controls, identify needed improvements, and take corresponding corrective action. The
      effective internal controls include reporting reliable information that is accurate,
      complete, and timely. Region 4 managers still have a responsibility to take corrective
      corresponding actions to report reliable information based on the already implemented
      strategy.


13-P-0028                                                                                      23
Recommendation No. 6: For Region 7’s audited initiative, identify the improved activities or
activities not taken in the awarded contract(s) associated with the original calculation to
determine whether cost avoidance exists.

       Region 7 Response: Region 7 does not agree with this recommendation. The purpose of
       the request was to identify projects that had the potential to reduce or avoid cost leading
       to a more efficient and effective government. In addition, Region 7 does not believe that
       OIG’s accepted definition of cost avoidance applies to the submitted activities. The OIG
       definition only considers “activities not taken.” Cost savings, however, may arise as a
       result of contracting activities. Savings submitted were calculated based on the difference
       of the contract award price and the Independent Government Cost Estimate (IGCE). Prior
       contract costs were factored into the formulation of the IGCEs. Past contracting costs
       along with experience in site cleanups ensures that IGCEs are well developed and
       accurate.

        OIG Evaluation for Recommendation 6:

        We do not agree with the Agency response. The OIG does not disagree with the fact that
        the IGCE may have included historical costs. However, the IGCE had to have included
        other costs based on the new requirements. For example, the one prior contract cost
        (provided by Region 7) totaled approximately $8 million and the related IGCE final cost
        totaled $16 million—the amount increased by 50 percent. The newly awarded contract
        valued at $11 million is closer to the prior contract cost than the IGCE. Based on the
        concepts described in FAR 13.106-3, 14.404-1, and 36.214, comparing the IGCE to
        proposals and prior contracts indicates how good the cost amount on the IGCE is.
        According to OMB memorandum M-09-25 additional guidance, there are two important
        parts to developing the savings and cost avoidances: (1) cost reductions and (2) a
        description of the actions taken. The OMB additional guidance provided the following
        example: “Bureau ABC spent $100,000 for express overnight delivery service in FY 09
        and was planning to spend $105,000 to meet its FY 10 needs. Instead of exercising an
        option under the existing agency contract in FY 10 for $105,000, the agency now plans
        to use a strategic sourcing vehicle and will pay $90,000 for the same services. Savings =
        $15,000.” Note: the example used an existing prior contract. Even though comparing the
        IGCE to the newly awarded contract showed that a cost reduction occurred, it does not
        describe any actions taken for efficient and effective government. Actions taken are
        important to provide the acquisition community processes used to develop savings to be
        further applied agency-wide. A clear justification on why the awarded contract price is
        significantly lower than the IGCE would further explain whether the estimate may have
        been inaccurate.

Recommendation No. 7: Recalculate the cost avoidance estimate based on the difference
between the awarded contract and similar prior contract prices.

       Region 7 Response: Region 7 does not agree with this recommendation. The purpose of
       the request was to identify projects that had the potential to reduce or avoid cost leading
       to a more efficient and effective government. Furthermore, based upon OIG’s definition



13-P-0028                                                                                       24
       of a cost avoidance or cost savings, the awarded contracts did not meet this definition.
       Therefore, there is no basis to recalculate the cost avoidance.

       OCFO Note: It should be noted that the idea of site–specific contracts for construction at
       Superfund sites was vetted under an Agency initiated workgroup, at the direction of the
       Administrator. Programmatically, there are a number of considerations that impact the
       selection of the best contract approach. As a result, the Agency allows flexibility for local
       offices and this idea is included as an option, but not mandated.

       OIG Evaluation for Recommendation 7:

       OIG does not agree with the Agency response. Region 7’s response shows differences
       about what methodology should be used to determine savings and cost avoidance.
       Improvements are needed with the methodology identified by Region 7 because the
       methodology is not backed by any guidance and the estimate itself may be inaccurate.
       There were no OIG definitions quoted in the report. We used OMB additional guidance
       that identified a methodology needed to determine savings.

       In response to the “OCFO Note,” the issue is not with using a site-specific contracting
       approach, it is about the methodology of comparing the IGCE to the newly awarded
       contract. We have not been given the explanation or support as to why site-specific
       contracting is the best contract approach.

Recommendation No. 8: Recalculate the cost avoidance to OCFO and OARM. 


       Region 7 Response: Please see responses to recommendations numbers six and seven. 


       OIG Evaluation for Recommendation 8:

       OMB Circular A-123 states that agencies and individual federal managers must take
       systematic and proactive measures to develop and implement appropriate, cost-effective
       internal controls, identify needed improvements, and take corresponding corrective
       action.

Recommendation No. 9: “Select significant projects from the 72 projects in light of the recent
OMB memorandum “Campaign to Cut Waste” to determine if these efforts have resulted in
significant savings and cost avoidances, and report significant efficiencies through the
Presidential SAVE imitative.

       OCFO Response: OCFO does not agree with this recommendation. The Presidential
       SAVE initiative evaluates ideas collected directly from Federal employees. It is not an
       appropriate reporting mechanism. The Agency is actively involved in pursuing efforts
       that contribute to the Campaign to Cut Waste and the Presidential SAVE Initiative. The
       reporting of these efforts is conducted as specified by OMB. However, it should be noted
       that under the Management Reform Agenda, the EPA developed ideas similar to the areas
       in the list that are part of other cost avoidance programs such as:



13-P-0028                                                                                         25
      1.	 Design and implementation of an Agency-wide solution for voice communications
          using an integrated hybrid solution of Voice-over Internet Protocol (VoIP) and local
          PBX technologies.
      2.	 Using off-the-shelf software to enhance the design of the Great Lakes Initiative (GLI)
          Clearinghouse. Region 5 is re-configuring the GLI Clearinghouse into a more
          affordable solution.

      Some other examples, from the list of 72 ideas, that contribute to managing reduced
      travel resources include less frequent meetings, use of webinars and changing the format
      and attendance at state oversight meetings. Many ideas also contribute to reductions in
      printing and supplies costs, such as reducing paper copies, maximizing use of electronic
      media and improving sourcing for supplies. Energy efficiencies also are featured, such as
      upgrading lab equipment and installation and modifying and upgrading building
      infrastructure.

      OIG Evaluation for Recommendation 9:

      We agree with the OCFO response to not report significant efficiencies through the
      Presidential SAVE initiative. The EPA’s 72 initiatives included past, current, and future
      projects identified by regions and program offices for potential efficiencies. OCFO
      identified ideas above similar to the 72 initiatives that were developed as part of the
      Agency-wide cost avoidance programs and attributed savings and efficiencies. At the
      time the 72 initiatives were developed, a few initiatives had been implemented by some
      regions and program offices which then did not have actual cost data associated with their
      projects and others did not fully go as planned. Thus, the regions and program offices
      implementing projects with significant funding and expenditures should evaluate them to
      determine whether their own projects actually saved significant money, achieved
      efficiency as anticipated, and can be expanded Agency-wide to optimize
      savings/efficiencies. Even though the SAVE program may not be used, the concept
      addressed in the “Campaign to Cut Waste” memo is that agencies should publicly
      examine and apply logical fixes so that others can learn from and leverage cost savings
      for Agency-wide implementation. We revised recommendation 9 to include the modified
      OIG position.




13-P-0028                                                                                     26
 Technical Inaccuracies from the OIG Report: Improvements Needed in Estimating and
                          Leveraging Cost Savings Across EPA

Page 2
         “Region 7’s FY 2011 Superfund budget totaled $116 million1”: This budget total could
         not be verified by the local office or by OCFO.

         OIG note: We obtained these figures from Compass as of February 2011 (see Footnote 1
         for details). They may have changed given that Compass is constantly changing.

Page 3
         “Region 4’s FY 2011 Superfund budget totaled $97 million2”: This budget total could not
         be verified by the local office or by OCFO.

         OIG note: We obtained these figures from Compass as of February 2011 (see Footnote 1
         for details).

Page 6
         “Chapter 2, Enhanced Methods Needed to Determine Savings and Cost Avoidances”:
         The draft report suggests that EPA will not be able to accurately report the results of its
         efficiency initiatives and influence internal and external management decisions. In
         managing our resources, the Agency has identified and implemented a number of savings
         and cost avoidance projects over many years.

         For example, as a result of the President’s Memorandum on Government Contracting
         issued on March 4, 2009, and OMB’s Memorandum on Improving Government
         Acquisition issued on July 29, 2009, the Agency reviewed our existing contracts and
         acquisition practices, submitted a plan to OMB on November 9, 2009, and were able to:
         (a) save 7 percent of baseline contract spending, over $96 million, by the end of FY 2011,
         (b) reduce by 10 percent the share of dollars obligated in FY 2010 under new contract
         actions that are awarded with high-risk contracting authorities.

         OIG note: We cannot comment on the validity and accuracy of the already reported
         savings. However, based on the two savings projects we audited, we believe
         improvements are needed in the methodologies and approach used to ensure that savings
         and cost avoidances are accurate and reflect prescribed guidance.

Page 7
         “Unreliable Method Used for Calculating Region 4 Savings”: The draft report indicates
         that Region 4 based its potential cost avoidance estimates for site assessment and
         enforcement on outdated, incomplete and unsupported information. In identifying a
         potential savings idea, Region 4 used the most readily available information to respond to
         OARM’s request. PRP Search Benchmarking and Regional Practices Evaluation
         (referenced in the report), is a valid source for producing cost estimates.




13-P-0028                                                                                         27
          OIG note: Region 4 could have obtained and used more current cost data from its
          financial staff, systems, and documents than the FYs 1999–2005 data it used to provide
          better estimates of costs savings. Timing is important to facilitate the reliability of all
          financial-reported data. Region 4 used FYs 1999–2005 data from the above
          benchmarking study for estimating savings for the period of 2009–2011.

Page 8,
          “Unreliable Method Used for Calculating Region 7 Savings on Site Specific Contracts”:
          The draft report indicates that the method Region 7 used to determine its potential
          savings and cost avoidances on construction contracts at specific Superfund sites was not
          reliable. The Independent Government Cost Estimate (IGCE) is the Government's
          reasonable estimate of the resources and the projected costs that a contractor would incur
          in the performance of a contract. As Region 7 was identifying a potential savings idea,
          Region 7 used the most readily available information to respond to OARM’s request.
          Accordingly, the IGCE is considered a valid and reliable estimate to identify cost savings
          and cost avoidances.

          OIG note: An IGCE is an estimate to determine the price reasonableness of a contract
          proposal.

Pages 9-10
       “Reported Savings Methodology Used Could be Misleading”: The draft report suggests
       use of the IGCE is contrary to FASAB and OMB guidance. The IGCE methodology is an
       accepted government practice which is widely used to determine price reasonableness. In
       fact, OMB highlighted the Agency’s reported savings in a congressional testimony of
       July 15, 2010, as mentioned in the draft report.

          OIG note: An IGCE methodology is an accepted government practice to determine price
          reasonableness of a contract proposal.

Page 10
       “Develop a policy on estimating savings and cost avoidances relating to contracts based
       on similar prior contract data that will show the actions not taken or improved
       operations as opposed to using the IGCEs.” The draft report suggests, through
       recommendation number three, that using the IGCE as an estimation tool for assessing
       contracts is not valid. Using direct historical price comparisons between like goods and
       services is optimal for developing meaningful and supportable savings/avoidance
       determinations. However, given that IGCEs are based on prior historical cost/price
       information, IGCEs are a viable baseline for determining cost savings and avoidances
       particularly when the agency is acquiring similar, but not the same goods or services. The
       FAR cites that comparison between the Government estimate (IGCE) and offered price as
       a methodology for determining price reasonableness in Parts 13.106-3, 14.408-2, 15.404-
       1(b), and 36.214. In these cites, the FAR recognizes that pricing is not an absolute
       undertaking and involves a significant amount of judgment.

          OIG Note: See OIG evaluation comments for recommendations 6, 7, and 8.


13-P-0028                                                                                               28
Page 11
       Recommendation No. 6, “For Region 7’s audited initiative, identify the improved
       activities or activities not taken in the awarded contract(s) associated with the original
       calculation to determine whether cost avoidance exists.” Region 7 does not believe that
       OIG’s accepted definition of cost avoidance applies to the submitted activities. Your
       definition only considers “activities not taken.” Cost savings, however, may arise as a
       result of contracting activities. Savings submitted were calculated based on the difference
       of the contract award price and the IGCE. Prior contract costs were factored into the
       formulation of the IGCEs. Past contracting costs along with experience in site cleanups
       ensures that IGCEs are well developed and accurate.

       OIG Note: See OIG evaluation comments for recommendations 6, 7, and 8.

Page 15
       Recommendation No. 9, “Select significant projects from the 72 projects in light of the
       recent OMB memorandum “Campaign to Cut Waste” to determine if these efforts have
       resulted in significant savings and cost avoidances, and report significant efficiencies
       through the Presidential SAVE initiative.” The Presidential Secure Americans’ Value and
       Efficiency (SAVE) Award initiative seeks ideas from federal employees to make
       government more effective and efficient and ensure taxpayer dollars are spent wisely.
       The ideas are then reviewed, ranked and recommended by the respective agencies for
       further consideration by OMB. The selected ideas are incorporated in the President’s
       Budget. The SAVE process is not designed for this type of reporting.

       OIG Note: See OIG evaluation comments for recommendation 9.




13-P-0028                                                                                       29
                                                                            Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Chief Financial Officer
Regional Administrator, Region 4
Regional Administrator, Region 7
Agency Follow-Up Coordinator
General Counsel
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Region 4
Audit Follow-Up Coordinator, Region 7




13-P-0028                                                                           30
